TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




               Opportunities Exist to Help Seniors and Many
                  Other Taxpayers That Repeatedly Make
              Mistakes on Their Individual Income Tax Returns



                                           May 31, 2007

                              Reference Number: 2007-30-075




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            May 31, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Opportunities Exist to Help Seniors and Many
                             Other Taxpayers That Repeatedly Make Mistakes on Their Individual
                             Income Tax Returns (Audit # 200630004)

 This report presents the results of our review of repetitive math error notices received by
 taxpayers. The overall objectives of this review were to identify taxpayers that have repeatedly
 received the same math error notices and to determine whether the Internal Revenue Service
 (IRS) could better address the issues causing these notices.

 Impact on the Taxpayer
 Many taxpayers that are age 65 or over (seniors), taxpayers that have claimed the Earned Income
 Credit (EIC), and taxpayers that have computed self-employment tax have received repetitive
 math error notices (i.e., the taxpayers had received a notice addressing the same issue in the prior
 year). This condition may indicate that taxpayers do not understand or are repeatedly
 overlooking specific instructions provided by the IRS; taxpayers do not understand an area of tax
 law; or the current filing information available to the taxpayers, including notices, is inadequate.
 Notices should not only inform taxpayers of their errors but should also educate them on the
 issues, and be a means to ensure the errors do not occur in the future. Unclear or inadequate tax
 information and notices create additional burden on taxpayers and often result in additional work
 and expense for the IRS.
                                   Opportunities Exist to Help Seniors and
                                Many Other Taxpayers That Repeatedly Make
                               Mistakes on Their Individual Income Tax Returns



Synopsis
Annually, the IRS sends over 100 million notices to taxpayers; the IRS estimates this costs more
than $400 million.1 More than 7 million of these notices are math error notices, which inform
taxpayers that changes were made to their tax returns as a result of mathematical or clerical
errors. The notices explain the nature of the changes and include account statements showing
how the changes affect the returns. Overall, the vast majority of taxpayers receiving these
notices do not repeat their errors in subsequent years. Further, very few business taxpayers
received repeat math error notices. The notices with a higher repeat rate were those sent to
individual taxpayers and were related to just a few areas of tax law. Only 5 notices accounted
for 40 percent of all repetitive math error notices issued to individual taxpayers, despite being
only 13 percent of the total number issued.
Senior taxpayers repeatedly made two errors when computing their taxes: (1) miscomputing
their taxable amounts of social security benefits and (2) claiming an incorrect standard
deduction. Random nonstatistical samples of 80 senior taxpayers making 1 of these 2 errors
showed that 95 percent had prepared their own returns. The average age of these taxpayers
was 72, and 24 percent of them were 80 years of age or older.
Also, taxpayers repeatedly made two errors related to the EIC. Most of these taxpayers made
calculation errors, and others inappropriately claimed the EIC after having been prohibited from
doing so and not recertifying that they were qualified for the EIC. Taxpayers making the
repetitive calculation errors had either (1) used the EIC Tables incorrectly year after year or
(2) filed a Profit or Loss From Business (Schedule C) but, for 2 years or 3 years in a row, had
failed to deduct one-half of their self-employment tax from the earned income amounts before
computing the EIC. The issue regarding recertification for the EIC has been reported in prior
Treasury Inspector General for Tax Administration audit reports; therefore, we made no
recommendations concerning the issue in this report.
Taxpayers also made repetitive errors when computing or reporting their self-employment tax.
Many of the taxpayers in our sample calculated the self-employment tax correctly but repeatedly
carried the wrong amounts forward to their U.S. Individual Income Tax Returns (Form 1040).
Other taxpayers calculated the self-employment tax incorrectly. A common cause was the
taxpayers did not begin the computation by multiplying the self-employment earnings by
92.35 percent, as instructed.




1
    Based on a 2001 IRS estimate.
                                                                                                   2
                             Opportunities Exist to Help Seniors and
                          Many Other Taxpayers That Repeatedly Make
                         Mistakes on Their Individual Income Tax Returns



Recommendations
We recommended the Director, Customer Account Services, Wage and Investment (W&I)
Division, modify the math error notices that have been sent repeatedly to taxpayers, to provide a
clearer and more informative explanation of the errors taxpayers are making. In addition, the
Director, Tax Forms and Publications, W&I Division, should make changes to the forms and
instructions associated with the provisions that have resulted in issuance of an inordinate number
of repetitive notices, including the addition of CAUTION symbols to mark portions of the tax
form instructions that appear to be overlooked or misunderstood. Finally, the Commissioner,
W&I Division, should continue to build on the research and analysis already performed to
develop the most effective ways to simplify tax preparation for senior taxpayers.

Response
The Commissioner, W&I Division, partially agreed with three of our recommendations and
disagreed with four recommendations. The Commissioner, W&I Division, agreed that the math
error notice related to the computation of the taxable amount of social security benefit should be
modified. The Commissioner, W&I Division, also agreed that research should be performed on
the senior taxpayer population to identify ways to simplify tax preparation for seniors and plans
to include such research in the Taxpayer Assistance Blueprint Research Plan which is currently
under development. To address the EIC issues, the Commissioner agreed to bold the filing status
headings at the top of the EIC Tables and will perform additional analysis of errors made
computing EIC to determine the causes and implement solutions. However, the Commissioner,
W&I Division, believes it is impractical to address in a notice all of the possible reasons
taxpayers made the errors in the repetitive notices we identified. The Commissioner, W&I
Division, also believes CAUTION symbols should be used judiciously and only for major issues,
and also added that the IRS has no data to substantiate whether using such symbols changes
taxpayer behavior or reduces these types of errors. The other changes we recommended to
improve tax form instructions were also rejected. Management’s complete response to the draft
report is included as Appendix V.

Office of Audit Comment
We believe the IRS has overlooked opportunities to educate and inform taxpayers, reduce
taxpayer burden, and simplify the filing process. This report identifies specific groups of
taxpayers, particularly senior taxpayers, making specific errors. Knowing the types of errors
taxpayers make on a recurring basis provides the IRS with a prime opportunity to help taxpayers
avoid making the same error in the future. We agree that CAUTION symbols should be used
judiciously and for major tax issues, but we believe that taxpayers repeatedly making specific
errors regarding the taxability of social security income and calculation of EIC or
                                                                                                 3
                             Opportunities Exist to Help Seniors and
                          Many Other Taxpayers That Repeatedly Make
                         Mistakes on Their Individual Income Tax Returns


self-employment tax are issues of much greater magnitude than many of those currently
receiving CAUTIONs. While there is a sizeable body of outside data available on the use of
“warnings,” which indicates that warnings, when used correctly, have a strong role in effecting
people’s behavior, we believe that if the IRS has questions regarding the effectiveness of these
warnings, it has a responsibility to gather data for itself regarding the effectiveness of
CAUTIONs as well as the other changes to notices and instructions discussed in this report.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Daniel R.
Devlin, Assistant Inspector General for Audit (Small Business and Corporate Programs), at
(202) 622-5894.




                                                                                                   4
                                       Opportunities Exist to Help Seniors and
                                    Many Other Taxpayers That Repeatedly Make
                                   Mistakes on Their Individual Income Tax Returns




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Many Senior Taxpayers Repeatedly Made Errors When Computing
          the Taxable Amount of Social Security Benefits and Determining Their
          Standard Deduction.......................................................................................Page 4
                    Recommendation 1:........................................................Page 9

                    Recommendation 2:........................................................Page 10

                    Recommendation 3:........................................................Page 11

          Taxpayers Claiming the Earned Income Credit Repeatedly Made Two
          Types of Errors .............................................................................................Page 12
                    Recommendation 4:........................................................Page 16

                    Recommendation 5:........................................................Page 17

          Taxpayers Made Repetitive Errors When Computing and Reporting
          Their Self-Employment Tax .........................................................................Page 17
                    Recommendations 6 and 7: ..............................................Page 19


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 21
          Appendix II – Major Contributors to This Report ........................................Page 23
          Appendix III – Report Distribution List .......................................................Page 24
          Appendix IV – Math Error Notices Reviewed .............................................Page 25
          Appendix V – Management’s Response to the Draft Report .......................Page 31
            Opportunities Exist to Help Seniors and
         Many Other Taxpayers That Repeatedly Make
        Mistakes on Their Individual Income Tax Returns




                Abbreviations

EIC       Earned Income Credit
IRS       Internal Revenue Service
ITIN      Individual Taxpayer Identification Number
SSN       Social Security Number
TIGTA     Treasury Inspector General for Tax Administration
W&I       Wage and Investment
                                 Opportunities Exist to Help Seniors and
                              Many Other Taxpayers That Repeatedly Make
                             Mistakes on Their Individual Income Tax Returns




                                           Background

The Internal Revenue Service’s (IRS) mission is to provide America’s taxpayers with top-quality
service by helping them understand and meet their tax responsibilities and by applying the tax
law with integrity and fairness to all. Notices informing taxpayers of errors, tax law, and
appropriate methods of filing are essential to achievement of the mission. The IRS has a
responsibility to fulfill its mission efficiently and cost effectively. As stated in a 2001 Treasury
Inspector General for Tax Administration (TIGTA) report,1 the IRS estimates its notice
operations cost $472 million annually, with about 60 percent of these costs attributable to the
downstream impact of issued notices (i.e., handling subsequent correspondence, telephone calls,
and remittances from taxpayers). Annually, the IRS sends more than 100 million notices to
taxpayers, including more than 7 million math error notices.
The IRS sends math error notices to taxpayers informing them that changes were made to their
tax returns as a result of mathematical or clerical errors made on the their returns. These notices
explain the nature of the changes and include account statements showing how the changes affect
the returns. Math error notices, and the ability to simply correct certain errors made by
taxpayers, originated out of the recognition that some errors on tax returns did not justify the
expense of an audit. Congress authorized the IRS to correct certain math errors that appeared on
the face of a tax return without opening an audit on
the taxpayer.
                                                                   Notices should not only inform
Issuance of repetitive math error notices may be an          taxpayers of their errors but should
indicator that taxpayers do not understand or are           educate them on the issues and be a
repeatedly overlooking specific instructions provided         means to ensure the errors do not
by the IRS; taxpayers do not understand an area of                   occur in the future.
tax law; taxpayers require additional education on a
particular tax law or filing requirement; or the current filing information available to the
taxpayer, including the notices, is inadequate. Notices should not only inform taxpayers of their
errors but should educate them on the issues, and be a means to ensure the errors do not occur in
the future. Unclear or inadequate tax information and notices create an additional burden on
taxpayers and often result in additional work and expense for the IRS.
During this audit, we computer identified taxpayers filing Employer’s Quarterly Federal Tax
Returns (Form 941), U.S. Corporation Income Tax Returns (Form 1120), and U.S. Individual
Income Tax Returns (Form 1040 series) that had repeatedly received the same math error notices
for Tax Years 2002 - 2004 returns.

1
 Increased Management Attention Is Needed to Ensure the Success of Future Notice Redesign Efforts (Reference
Number 2002-30-040, dated December 2001).
                                                                                                       Page 1
                                 Opportunities Exist to Help Seniors and
                              Many Other Taxpayers That Repeatedly Make
                             Mistakes on Their Individual Income Tax Returns



Overall, the vast majority of taxpayers receiving these notices do not repeat their errors in
subsequent years. Further, very few business taxpayers received repeat math error notices. The
notices with a higher repeat rate were those sent to individual taxpayers and were related to just a
few areas of tax law.
Our review of all math error notices issued to Forms 941 and 1120 filers showed the IRS had
sent 155,644 notices for Tax Years 2002 - 2004. We estimate only 690 notices (.44 percent)
were repetitive. Due to the minimal number of taxpayers affected and the low percentage of
notices sent to taxpayers on a repeated basis, we did not perform any additional analysis on the
math error notices associated with Forms 941 or 1120.
We found that significantly more taxpayers filing a Form 1040 series return had received repeat
notices. Because of the higher numbers, we focused on 35 math error notices that either had
high volumes or addressed errors we considered to be significant to taxpayers. See Appendix IV
for a list of the math error notices included in our review.
The IRS sent more than 12.5 million math error notices to individual taxpayers for Tax
Years 2002 - 2004. Of those, an estimated 410,065 notices (3.2 percent), affecting
327,044 taxpayers, were repetitive notices (i.e., the taxpayers had received a notice addressing
the same issue in the prior year). Further review of these notices indicated that only 5 notices
accounted for 40 percent of all repetitive math error notices issued, despite being only 13 percent
of the total number issued.
              Figure 1: Repetitive Notice Volumes (Tax Years 2002 - 2004)

                                        Form 1040
                                         Notices,
                                         410,065
                           600,000                            Forms 941
                                                               and 1120
                           400,000                              Notices,
                                                                 690
                           200,000

                                  0


                       Source: TIGTA computer extracts.

This audit was performed at the IRS Campus2 in Ogden, Utah, and included reviews of tax
returns filed nationwide. It also included discussions with employees from the Tax Forms and
Publications, Submission Processing, Strategy and Finance, Earned Income Tax Credit Strategic


2
 Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 2
                            Opportunities Exist to Help Seniors and
                         Many Other Taxpayers That Repeatedly Make
                        Mistakes on Their Individual Income Tax Returns



Operations, and Notice Gatekeeper functions in the IRS Wage and Investment (W&I) Division.
The audit was performed during the period October 2005 through November 2006 in accordance
with Government Auditing Standards. Detailed information on our audit objectives, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                      Page 3
                                   Opportunities Exist to Help Seniors and
                                Many Other Taxpayers That Repeatedly Make
                               Mistakes on Their Individual Income Tax Returns




                                       Results of Review

Many Senior Taxpayers Repeatedly Made Errors When Computing the
Taxable Amount of Social Security Benefits and Determining Their
Standard Deduction
Some Federal tax law provisions have been passed specifically to benefit senior taxpayers. They
include an increased standard deduction, credits for the elderly, and a higher gross income
threshold for filing. Other tax provisions become applicable as taxpayers grow older and affect
their social security benefits, retirement plan distributions, pensions and annuities, and medical
expenses. The IRS must ensure these taxpayers fully understand the tax provisions that affect
them and how to report and comply with these provisions.
Two tax provisions affecting senior taxpayers had been inappropriately applied by a large
number of taxpayers on a repeated basis. They include computation of the taxable amount of
social security benefits and the determination of the appropriate standard deduction.

Taxpayers made errors in calculating the taxable amount of Social Security
benefits
When a taxpayer makes an error computing his or her taxable amount of social security benefits,
the IRS corrects the mistake and sends the taxpayer a math error notice that reads:
         “We changed the amount of social security benefits on page 1 of your tax return
         because there was an error in the computation of the taxable amount.”
For Tax Year 2004, the IRS sent 196,709 notices to senior taxpayers explaining that they had
miscomputed their taxable amounts of social security benefits. More than 34,000 (17 percent) of
these taxpayers were receiving this notice for the second time; we estimate more than
10,000 taxpayers were receiving it for a third time.3
Our review of a sample of 40 taxpayers that had received the notice in multiple years revealed
the following:
    •    The average age of these taxpayers in 2003 was 71 (25 percent of the taxpayers were
         80 years of age or older).


3
 We had to estimate the number of taxpayers receiving some of the notices for the third year, based on random
nonstatistical samples because different numbers were assigned to the notices used to address the errors; therefore,
our computer programs did not identify the notice as a repeat notice in the third year.
                                                                                                              Page 4
                              Opportunities Exist to Help Seniors and
                           Many Other Taxpayers That Repeatedly Make
                          Mistakes on Their Individual Income Tax Returns



particularly when taxpayers prepare their own returns. In discussions with IRS employees, they
stated that they have made attempts to simplify the worksheet used to compute the taxable
portion of social security benefits. However, the computation remains complex and the
repetitive errors by taxpayers indicate these areas may need additional attention by the IRS.
To assess the potential causes for these repetitive errors and to determine if the IRS could
realistically do more to reduce these repetitive errors, we reviewed the forms, instructions, and
notices associated with the provisions and found that improvements could be made. We also
found that extensive consideration has been given to simplifying tax preparation for senior
taxpayers, but more action needs to be taken.

Improvements to math error notices can be made
The math error notice sent to taxpayers explaining that an error was made on their taxable
amount of social security does not correctly explain the action taken by the IRS and could cause
some confusion. It reads,
       “We changed the amount of social security benefits on page 1 of your tax return
       because there was an error in the computation of the taxable amount.”
Actually, the error that occurred in the computation will have no bearing on the taxpayer’s social
security benefits, as stated in the notice. Only the amount computed as taxable social security
benefits will be changed. We recognize that the wording of this notice may not be the cause of
repetitive errors made by taxpayers, but it should be changed nonetheless.
The math error notice sent to senior taxpayers qualifying for a larger standard deduction is brief
and clearly explains what the error was. It reads,
       “We changed the amount claimed as standard deduction on page 2 of your tax
       return. You are entitled to a higher standard deduction if you and/or your spouse
       are age 65 or older and/or blind.”
However, additional wording could be used to better inform and educate taxpayers, to help them
avoid the error in the future. For example, including a comparison of the standard deduction
available to senior taxpayers with the common standard deduction may help senior taxpayers
more clearly understand and remember that a higher standard deduction is available.




                                                                                             Page 6
                              Opportunities Exist to Help Seniors and
                           Many Other Taxpayers That Repeatedly Make
                          Mistakes on Their Individual Income Tax Returns



Improvements to forms and instructions can be made
The computation to determine the tax on social security benefits is fairly complicated, especially
for taxpayers that are not well versed in tax law. Senior taxpayers that prepare their own returns
each year need to be clearly informed of the IRS programs and customer assistance that is
available to them beyond written publications, such as toll-free telephone assistance and Tax
Counseling for the Elderly. This should help reduce the errors made by senior taxpayers and
reduce the burden on them.
In addition, the forms and instructions designed to ensure senior taxpayers receive the proper
amount of standard deduction could be improved. From the returns in our samples, it was clear
that some taxpayers were not following the instructions and may not have been sure they were
entitled to a higher standard deduction. Neither the Form 1040 nor the Form 1040 Instructions
specifically explains that, if a taxpayer or his or her spouse is age 65 or older (or born before a
specific year), he or she is entitled to a higher standard deduction. The wording used on the
Form 1040 explains that calculation of the standard deduction is based on the box(es) checked on
certain lines.
On Form 1040, taxpayers are instructed to check boxes if they (spouse included) are blind and/or
were born before a specific date. Then they are instructed to “see left margin” of the Form 1040,
where there is a box containing guidance for the standard deduction. That guidance directs
taxpayers who checked boxes to turn to a page in the Form 1040 Instructions; however, the
guidance in the left margin of Form 1040 also lists the standard deduction amounts for all other
taxpayers. It is these amounts that the senior taxpayers in our samples almost always used as
their standard deduction amounts.
The multiaction method that must be used by seniors to determine their allowable standard
deduction (in which senior taxpayers check boxes then go to additional instructions) is confusing
because some taxpayers do not realize they are entitled to a higher standard deduction due to
their age.

Efforts to simplify tax return preparation have been considered
The IRS has recently considered actions to address the additional tax complexities faced by
senior taxpayers. However, the actions considered were not implemented. In January 2004, the
IRS Commissioner and a former Deputy Commissioner requested that the IRS consider and
research methods of simplifying the tax-preparation process for senior taxpayers. This included
considering the development of a new tax form.
Later that year, the House of Representatives introduced H.R. 4109, the Simple Tax for Seniors
Act. The bill would have required the IRS to offer a simplified tax form for individuals age 65
and older. The form would have been designated Form 1040S and would have been similar to
the Income Tax Return for Single and Joint Filers With No Dependents (Form 1040EZ). The
form was intended to be available for senior taxpayers regardless of their receipt of social

                                                                                            Page 7
                                  Opportunities Exist to Help Seniors and
                               Many Other Taxpayers That Repeatedly Make
                              Mistakes on Their Individual Income Tax Returns



security benefits or any distributions from retirement plans, their receipt of interest and
dividends, the amount of their capital gains and losses, and their taxable income. The bill passed
the House of Representatives under suspension of the rules by a vote of 418-0 on June 2, 2004.
The Senate, however, did not act on the bill.
The IRS conducted research to determine the viability of the Form 1040S and ultimately
concluded the potential number of seniors (estimated by the IRS to be 10.8 million) who would
benefit from a separate tax form would not justify the complexity and costs associated with the
introduction of a fourth Form 1040 series tax form. The IRS estimated only 2.9 million of the
10.8 million seniors would prepare their own returns without the use of software.
While analyzing the feasibility of creating a new form, the IRS considered creating an additional
schedule (Schedule O) that could be used to simplify tax provisions facing senior taxpayers. As
this schedule was developed, however, its initial purpose (helping senior taxpayers) diminished,
and development of a schedule that could reduce the overall complexity of Form 1040 became
the focus. Development of Schedule O is currently an ongoing project, and its feasibility is still
being determined. Benefiting senior taxpayers, however, is no longer its purpose.
To identify other areas where tax complexities could be reduced, Congress required the IRS
Commissioner, in Section 4022 of the IRS Restructuring and Reform Act of 1998,4 to submit
each year to both the House Ways and Means Committee and Senate Finance Committee a
report with recommendations for reducing tax complexities by, among other things, considering
common errors made by taxpayers in filling out their returns.
The two issues affecting senior taxpayers discussed above appear to qualify for this report. For
example, the complexity of computing the taxable amount of social security benefits is causing a
high rate of errors among senior taxpayers. As mentioned previously, 53 percent (21 of 40) had
miscalculated the taxable amounts for 2 years or 3 years in row. A more simplified method to
determine the taxable amount would decrease the burden on taxpayers and enable the IRS to
save resources.
Also, determining the standard deduction for senior taxpayers is complex and is causing a high
rate of errors. The Tax Year 2006 Standard Deduction Chart for People Who Were Born Before
January 2, 1942, or Were Blind includes 12 possible choices based on the number of boxes
checked and filing status. Due to the Chart’s complexity, the IRS is unable to include the
amount of standard deduction the senior taxpayer qualifies for on the Form 1040 itself and must
require the taxpayer to obtain the amount from a chart in the Form 1040 Instructions.
IRS emphasis on simplifying tax issues affecting older taxpayers should remain important
because a large portion of the taxpaying public is shifting into the senior taxpayer bracket.
According to the U.S. Census Bureau, the number of persons age 65 and older is expected to

4
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                             Page 8
                             Opportunities Exist to Help Seniors and
                          Many Other Taxpayers That Repeatedly Make
                         Mistakes on Their Individual Income Tax Returns



increase from approximately 35 million in 2000 to an estimated 71 million in 2030, and the
number of persons age 80 and over is expected to increase from 9.3 million in 2000 to
19.5 million in 2030.

Recommendations
Recommendation 1: The Director, Customer Account Services, W&I Division, should:
   •   Correct the math error notice sent to taxpayers notifying them of an error made
       computing their taxable amount of social security benefit to explain the action actually
       taken by the IRS. Currently, the notice erroneously indicates the IRS changed the
       amount of social security benefits, rather than correctly explaining that it changed the
       taxable amount of social security benefits.
   •   Add information in both the repetitive notices affecting senior taxpayers that would better
       educate and inform senior taxpayers about the errors made. This could include the
       customer service assistance available to help them (e.g., toll-free telephone numbers, the
       Volunteer Income Tax Assistance Program, web sites, publications) and examples, such
       as a comparison of the standard deduction available to senior taxpayers with the common
       standard deduction, to help these taxpayers more clearly understand and remember that a
       higher standard deduction is available to them.
       Management’s Response: IRS management partially agreed with this
       recommendation. The Commissioner, W&I Division, agreed to correct the math error
       notice sent to taxpayers notifying them of an error made computing their taxable amount
       of social security benefit. The IRS plans to rewrite the notice to correctly state that the
       taxpayer made an error computing the “taxable amount of their social security benefit.”
       The Commissioner, W&I Division, disagreed with the second portion of our
       recommendation, stating the IRS issues notices on a case-by-case basis rather than to
       particular groups of taxpayers such as seniors. However, to address this issue,
       Submission Processing will coordinate with the W&I Division Stakeholder Partnerships,
       Education, and Communication organization to develop and distribute a fact sheet of
       common errors made by seniors that can be disseminated to a variety of media sources.
       Office of Audit Comment: We agree that distributing additional information for
       seniors through the media could be beneficial. However, providing senior taxpayers who
       are making specific errors with information that specifically addresses those errors would
       be the most effective. Knowing the types of taxpayers and the types of errors they are
       making provides the IRS with a direct and a prime opportunity to educate and inform
       them.
       We recognize that the “IRS issues notices on a case-by-case basis rather than to particular
       groups of taxpayers such as seniors.” However, the vast majority of taxpayers that

                                                                                            Page 9
                              Opportunities Exist to Help Seniors and
                           Many Other Taxpayers That Repeatedly Make
                          Mistakes on Their Individual Income Tax Returns



       receive the two notices addressed in our recommendation are sent to senior taxpayers.
       Seventy-five percent of our sample of taxpayers receiving repeat notices because their
       social security tax computation was incorrect were 65 years of age or older. Ninety-five
       percent of the taxpayers were over the age of 55. Also, the Social Security
       Administration, Office of the Actuary, indicated that as of the end of 2003, 71 percent of
       taxpayers receiving social security were age 65 or older. The notice sent to taxpayers
       informing them that an error was made would provide the IRS with a key opportunity to
       warn them of common errors made. For instance, a paragraph could be included in the
       notice stating, “If you are receiving this notice and are aged 65 or older, please be advised
       of the following common errors to avoid in the future.” Then, simply state the common
       errors and provide them with the IRS help that is available.
       In addition, due to the nature of the tax provision itself, almost all taxpayers receiving a
       notice informing them that they are entitled to a higher standard deduction will be aged
       65 and older, providing the IRS with another prime opportunity to warn senior taxpayers
       of common errors. We recognize that some of these notices will be sent to blind
       taxpayers (many of which will be older than 65); however, the vast majority, and in the
       case of our audit sample, 100 percent, will be sent to taxpayers that are 65 or older.
       Finally, based on our audit sample, the notices sent appear to adequately address the
       errors caused by taxpayers; however, they do nothing to explain why the error was made
       or what the taxpayers could do in the future to avoid making it again. Providing
       additional direction to the taxpayers to help them avoid the mistake in the future by
       stating that their standard deduction amount cannot be obtained from off the front of the
       Form 1040 and must be obtained within the instructions themselves, may not only help
       them avoid the mistake in the future but is fundamental to taxpayer education.
Recommendation 2: The Director, Tax Forms and Publications, W&I Division, should
identify complicated tax law provisions affecting senior taxpayers and include specific
references to the services that are available to them within those provisions’ instructions and,
where possible, on the tax form(s).
       Management’s Response: IRS management disagreed with this recommendation.
       The Commissioner, W&I Division, believes other outreach and communication channels
       focused on seniors would be more effective than placing specific references to services
       available to seniors throughout form instructions or on the forms themselves. The
       Commissioner, W&I Division, stated each page of the instructions for Form 1040 already
       includes a footnote that refers taxpayers that need more information or forms to a page in
       the instructions entitled “Quick and Easy Access to Tax Help and Forms.” Also, Older
       Americans’ Tax Guide (Publication 554) includes a section entitled, “How to Get Tax
       Help.” Finally, additional information in the Form 1040 Instructions advises taxpayers of
       the services available to seniors through the Volunteer Income Tax Assistance and Tax
       Counseling for the Elderly programs.

                                                                                            Page 10
                             Opportunities Exist to Help Seniors and
                          Many Other Taxpayers That Repeatedly Make
                         Mistakes on Their Individual Income Tax Returns



       Office of Audit Comment: We believe that a combination of efforts would best
       achieve the objective. Focusing on all seniors would be beneficial when specific
       problems cannot be identified. However, when specific problems can be pinpointed,
       those issues should be specifically addressed (i.e., senior taxpayers that commonly claim
       an incorrect amount of standard deduction as noted in our report).
       Many of the examples cited in management’s response are generic and apply to all
       taxpayers. Those that apply to seniors are either not noted in the Form 1040 Instructions
       or are very difficult to find. Publication 554 is never mentioned in the Form 1040
       General Instructions and the section in the Form 1040 Instructions that advises seniors of
       the services available to them is difficult to identify in the 80-plus page document; it is
       listed on page 65 under the heading “General Information.” Furthermore, reference to
       these instructions in the Index to Instruction is only found under the heading of “Free tax
       help” despite a heading in the Index entitled “Elderly persons.”
       We do not believe requiring seniors to order a technical publication or having an obscure
       paragraph that explains where seniors can go to obtain additional help is commensurate
       with a request made in 2004 by the IRS Commissioner and a former Deputy
       Commissioner that the IRS consider and research methods of simplifying the
       tax-preparation process for senior taxpayers. Nor do we believe the examples mentioned
       in the IRS’ response that focus on seniors meets the spirit of the legislation passed by the
       House of Representatives that would have required the IRS to offer a simplified tax form
       for individuals age 65 and older.
Recommendation 3: The Commissioner, W&I Division, should work with the Tax Forms
and Publications function and other pertinent functions to build on research and analysis already
performed in determining the most effective ways to simplify tax preparation for senior
taxpayers. In addition, tax complexities identified in this audit report should be elevated for
inclusion in the IRS Commissioner’s annual report on tax complexities to the House Ways and
Means Committee and Senate Finance Committee.
       Management’s Response: IRS management partially agreed with this
       recommendation. The Commissioner, W&I Division, stated that the Taxpayer Assistance
       Blueprint Research Plan, which is currently under development, will include research on
       the senior population that will provide information to help identify the most effective
       ways to simplify tax preparation for seniors. However, the Commissioner, W&I
       Division, did not agree to elevate the tax complexities identified in this audit report to the
       annual report on tax complexities to the House Ways and Means Committee and Senate
       Finance Committee because he believes there are more effective ways of elevating the
       issues to Congress.
       Office of Audit Comment: Despite the specific call for such a report in the IRS
       Restructuring and Reform Act of 1998, we are less concerned about the vehicle used to

                                                                                            Page 11
                                     Opportunities Exist to Help Seniors and
                                  Many Other Taxpayers That Repeatedly Make
                                 Mistakes on Their Individual Income Tax Returns



           elevate these complexity issues to Congress than we are with the fact that they should be
           raised. However, the IRS should identify a responsible official and determine a
           reasonable date by which these specific complexity issues will be raised.

Taxpayers Claiming the Earned Income Credit Repeatedly Made Two
Types of Errors
Taxpayers claiming the Earned Income Credit (EIC) have repeatedly made errors in two areas:
(1) computation of the EIC amount and (2) completion of the recertification process required for
taxpayers who were prohibited from claiming the EIC after an IRS examination of their tax
returns.

Taxpayers made errors in computing the EIC
The notice sent to taxpayers to inform them that they made an error when computing the EIC
reads,
           “We changed the amount claimed as Earned Income Credit (EIC) on your tax
           return. The amount claimed as EIC was figured or entered incorrectly on your
           tax return.”
For Tax Year 2004, the IRS sent 269,011 math error notices to taxpayers notifying them of a
miscalculation of their EIC amounts. More than 44,000 taxpayers (16 percent) were receiving
this notice for a second time; we estimate at least 18,797 were receiving it for a third time.
Our review of a sample of 40 taxpayers receiving this same error notice in multiple years
revealed the following:
       •   Seventy percent (28 of 40) had prepared their own tax returns.
       •   Sixty-eight percent (27 of 40) had used the EIC Tables incorrectly to determine the
           amount of EIC for 2 years or 3 years in a row. Of these 27 taxpayers, 16 had used an
           incorrect filing status (6 of the 16 taxpayers had used paid preparers) on every return.
       •   Eighteen percent (75 of 40) filed a Profit or Loss From Business (Schedule C) but had
           failed to deduct one-half of their self-employment tax from the earned income amounts
           before computing the EIC for 2 years or 3 years in a row.
We also reviewed the forms and instructions associated with the EIC tax law provision, to
identify any potential causes for these repetitive taxpayer errors and to determine if
changes could be made by the IRS.



5
    These 7 taxpayers accounted for 35 percent of those in our sample that had filed a Schedule C.
                                                                                                     Page 12
                              Opportunities Exist to Help Seniors and
                           Many Other Taxpayers That Repeatedly Make
                          Mistakes on Their Individual Income Tax Returns



Improvements to math error notices can be made
The wording of the notice that informs taxpayers that an error was made in the amount of EIC
claimed is intentionally generic because, according to IRS instructions, it is to be used “when the
taxpayer made a mistake computing the EIC amount and no other EIC notice applies.”
However, revising the notice to include information that warns taxpayers of common errors
made may help them avoid the same mistakes in the future. Our review clearly showed that
taxpayers commonly misread the EIC Table and Schedule C filers often forgot to deduct one-half
of their self-employment tax from the earned income amount before computing the EIC.

Improvements to the EIC instructions and Table can be made
In the EIC Table, a high number of taxpayers have repeatedly had trouble differentiating
between the column used by those with a Single, Head of Household, or Qualifying Widow(er)
filing status and the column used by those with a Married Filing Jointly filing status. Therefore,
we believe the format of the columns in the EIC Table should be revised. Currently, the columns
are side by side with minimal separation (thin line) and are labeled with small print. Horizontal
shading is used to separate the rows listing the dollar amounts.
The filing status columns could be better distinguished and emphasized by using shading to
differentiate the columns rather than the dollar amounts. This would be consistent with the Tax
Table in the Form 1040 Instructions and appears to be a better use of shading. In addition, large,
bold fonts could be used to better identify the columns. If the IRS has concerns that the EIC
Table and the Tax Table would look too similar, a different color of shading could be used for
the EIC Table. A comparison of the IRS EIC Table (Tax Year 2006 Draft) and possible
modifications (TIGTA revision) are shown in Figure 2.




                                                                                           Page 13
                                                           Opportunities Exist to Help Seniors and
                                                        Many Other Taxpayers That Repeatedly Make
                                                       Mistakes on Their Individual Income Tax Returns



          Figure 2: IRS 2006 EIC Table                                                                  Figure 2: TIGTA Revision of the
       (DRAFT 2006 Form 1040 Instructions,                                                                       2006 EIC Table
                     pg. 56)
 2006 Earned Income Credit (EIC) Table- Continued                                                   2006 Earned Income Credit (EIC) Table- Continued
                                              And your filing status is --                                                                 And your filing status is --
                                                                                                                              Single, head of
                             Single, head of household,         Married filing jointly and you                                household, or               Married filing jointly and
 If the amount you are       or qualifying widow(er) and        have –                             If the amount you are      qualifying widow(er)        you have –
 looking up from the         you have –                                                            looking up from the        and you have –
 worksheet is--                                                                                    worksheet is--
                               No         One          Two        No         One          Two                                   No       One          Two        No         One          Two
                             children     child      children   children     child      children                              children   child      children   children     child      children
  At least   But less than           Your credit is --                  Your credit is --          At least   But less than          Your credit is --                 Your credit is --
 16,000       16,050              0      2,553        4,280          0      2,747       4,536      16,000      16,050              0     2,553      4,280           0      2,747       4,536
 16,050       16,100              0      2,545        4,270          0      2,747       4,536      16,050      16,100              0     2,545      4,270           0      2,747       4,536
 16,100       16,150              0      2,537        4,259          0      2,747       4,536      16,100      16,150              0     2,537      4,259           0      2,747       4,536
 16,150       16,200              0      2,529        4,249          0      2,747       4,536      16,150      16,200              0     2,529      4,249           0      2,747       4,536
 16,200       16,250              0      2,521        4,238          0      2,747       4,536      16,200      16,250              0     2,521      4,238           0      2,747       4,536
 16,250       16,300              0      2,513        4,227          0      2,747       4,536      16,250      16,300              0     2,513      4,227           0      2,747       4,536
 16,300       16,350              0      2,505        4,217          0      2,747       4,536      16,300      16,350              0     2,505      4,217           0      2,747       4,536
 16,350       16,400              0      2,497        4,206          0      2,747       4,536      16,350      16,400              0     2,497      4,206           0      2,747       4,536
 16,400       16,450              0      2,489        4,196          0      2,747       4,536      16,400      16,450              0     2,489      4,196           0      2,747       4,536
 16,450       16,500              0      2,481        4,185          0      2,747       4,536      16,450      16,500              0     2,481      4,185           0      2,747       4,536
 16,500       16,550              0      2,473        4,175          0      2,747       4,536      16,500      16,550              0     2,473      4,175           0      2,747       4,536
 16,550       16,600              0      2,465        4,164          0      2,747       4,536      16,550      16,600              0     2,465      4,164           0      2,747       4,536
 16,600       16,650              0      2,457        4,154          0      2,747       4,536      16,600      16,650              0     2,457      4,154           0      2,747       4,536
 16,650       16,700              0      2,449        4,143          0      2,747       4,536      16,650      16,700              0     2,449      4,143           0      2,747       4,536
 16,700       16,750              0      2,441        4,133          0      2,747       4,536      16,700      16,750              0     2,441      4,133           0      2,747       4,536
 16,750       16,800              0      2,443        4,122          0      2,747       4,536      16,750      16,800              0     2,443      4,122           0      2,747       4,536
 16,800       16,850              0      2,425        4,112          0      2,747       4,536      16,800      16,850              0     2,425      4,112           0      2,747       4,536
 16,850       16,900              0      2,417        4,101          0      2,737       4,522      16,850      16,900              0     2,417      4,101           0      2,737       4,522
 16,900       16,950              0      2,409        4,091          0      2,729       4,512      16,900      16,950              0     2,409      4,091           0      2,729       4,512
 16,950       17,000              0      2,401        4,080          0      2,721       4,501      16,950      17,000              0     2,401      4,080           0      2,721       4,501
 17,000       17,050              0      2,393        4,070          0      2,713       4,491      17,000      17,050              0     2,393      4,070           0      2,713       4,491
 17,050       17,100              0      2,385        4,059          0      2,705       4,480      17,050      17,100              0     2,385      4,059           0      2,705       4,480
 17,100       17,150              0      2,377        4,048          0      2,697       4,470      17,100      17,150              0     2,377      4,048           0      2,697       4,470
 17,150       17,200              0      2,369        4,038          0      2,689       4,459      17,150      17,200              0     2,369      4,038           0      2,689       4,459
 17,200       17,250              0      2,361        4,027          0      2,681       4,449      17,200      17,250              0     2,361      4,027           0      2,681       4,449



Source: Draft 2006 Form 1040 Instructions and TIGTA revision.

    In some instances, the IRS uses symbols to provide helpful information to taxpayers in the form
    of “TIP” and “CAUTION” symbols. A CAUTION symbol added to the portion of the
    instructions that alerts a taxpayer filing with a Schedule C to reduce earned income by
    one-half of his or her self-employment tax before computing the EIC (Worksheet B – Earned
    Income Credit – Lines 66a and 66b) may help the taxpayer avoid making that error year after
    year. In discussions with us, the IRS expressed some hesitancy to add more CAUTIONs to
    instructions, for fear that overuse may reduce their effectiveness. However, we found
    Worksheet B currently contained only one CAUTION, whereas instructions for Form 1040
    Line 21 (Other Income) contain three CAUTIONs and two TIPs.
    In addition to “TIP” and “CAUTION” symbols, the IRS could adopt additional symbols to serve
    as warnings or reminders (see Figure 3). This would help maintain the effectiveness of the
    current symbols by avoiding overuse.




                                                                                                                                                                             Page 14
                                 Opportunities Exist to Help Seniors and
                              Many Other Taxpayers That Repeatedly Make
                             Mistakes on Their Individual Income Tax Returns



                                 Figure 3: Instructional Symbols

      SYMBOLS CURRENTLY USED BY THE IRS IN FORM 1040 INSTRUCTIONS




                             Caution Symbol                     Tip Symbol

  ADDITIONAL SYMBOLS THAT COULD BE USED AS CAUTIONS OR REMINDERS




                   Reminder                   Stop & Consider                 Warning
Source: Form 1040 Instructions and TIGTA suggestions.

 Taxpayers made errors in the EIC recertification process
 The math error notice that is sent to taxpayers repeatedly regarding the IRS’ EIC Recertification
 Program reads,
         “We can’t allow the amount claimed as Earned Income Credit on page 2 of your
         tax return. We have no record of receiving Form 8862, Information to Claim
         Earned Income Credit After Disallowance, recertifying that you are eligible for
         the credit. You need to file Form 8862, which we have included with this notice
         for your convenience.”
 It is generated when taxpayers claim the EIC after having been prohibited from doing so due to
 an IRS examination. A recertification indicator is placed on the taxpayer’s account, and he or
 she is unable to claim the credit until he or she proves eligibility (i.e., recertifies). An
 Information to Claim Earned Income Credit After Disallowance (Form 8862) is used to do this.
 We determined issuance of many of these repetitive recertification notices could be attributed to
 problems with the IRS’ administration of the EIC Recertification Program. Prior TIGTA audit




                                                                                           Page 15
                                Opportunities Exist to Help Seniors and
                             Many Other Taxpayers That Repeatedly Make
                            Mistakes on Their Individual Income Tax Returns



reports6 described a number of inaccuracies and inconsistencies with the Program, including the
IRS’ (1) failure to timely remove the recertification indicators from some taxpayer accounts and
(2) improper removal of the indicator from other accounts, which then allowed taxpayers to
receive the EIC without recertifying for it.
Almost 70,000 of these notices were sent to taxpayers who had filed individual income tax
returns for Tax Year 2004; 30 percent were repetitive notices affecting 20,536 taxpayers. We
estimated 4,261 taxpayers received the notice for at least a third year. We reviewed these returns
and found issuance of the math error notices could generally be attributed to problems with the
EIC Recertification Program we had previously identified. Many of the issues raised in the prior
TIGTA reports have been addressed or are being addressed, and corrective actions should reduce
the number of these repetitive notices being issued. Therefore, we are making no
recommendations to address the EIC Recertification Program in this report.

Recommendations
Recommendation 4: The Director, Customer Account Services, W&I Division, should
include additional information in the notice to alert taxpayers to common EIC computational
errors.
        Management’s Response: IRS management disagreed with this recommendation.
        The Commissioner, W&I Division, stated there is no data to substantiate the assertion
        that including additional information in the notice would improve accuracy. To the
        contrary, the IRS believes that including additional information would likely make the
        notice more confusing to taxpayers.
        Office of Audit Comment: Based on our review, we found taxpayers were
        significantly more likely to receive this notice multiple times than most other notices.
        This is certainly data enough to substantiate that some action is warranted by the IRS to
        improve the notice, whether that would be providing more information regarding
        common errors or implementing another method of improvement. Interestingly, the IRS
        offers no data to support that the additional information recommended by the TIGTA
        would confuse taxpayers. We believe, at a minimum, the IRS should test changes to the
        notice and gather data to determine if taxpayers with more information were confused or
        were able to avoid repeating their errors.




6
 Improvements Are Needed in the Earned Income Credit Recertification Program (Reference Number 2001-40-030,
dated December 2000) and The Earned Income Recertification Program Continues to Experience Problems
(Reference Number 2005-40-039, March 2005).
                                                                                                  Page 16
                             Opportunities Exist to Help Seniors and
                          Many Other Taxpayers That Repeatedly Make
                         Mistakes on Their Individual Income Tax Returns



Recommendation 5: The Director, Tax Forms and Publications, W&I Division, should:
   •   Enhance the instructions for computing the EIC by making improvements to the EIC
       Table. A more effective use of shading and a more judicious use of bolding and font size
       may reduce the number of repetitive errors made by taxpayers when determining how
       much EIC they can claim.
   •   Use CAUTION symbols to mark portions of tax form instructions that appear to be
       overlooked or misunderstood. This may benefit taxpayers by helping them avoid
       common repetitive mistakes. As noted in this report, a CAUTION symbol could be
       helpful in the instructions for taxpayers that file a Schedule C and claim the EIC.
       Management’s Response: IRS management partially agreed with this
       recommendation. The Commissioner, W&I Division, agreed to differentiate the filing
       status columns on the EIC Table by using bolding to help taxpayers select the correct
       column for their EIC amount. The IRS did not agree to use CAUTION symbols to mark
       portions of tax form instructions that appear to be overlooked or misunderstood based on
       the number of repeat notices our audit identified. However, the IRS agreed to revise the
       instructions for line 31 of Schedule C to remind taxpayers to deduct one-half of the
       self-employment tax amounts from earned income to compute the EIC. In addition, the
       Director, Earned Income and Health Coverage Tax Credits, plans to conduct an analysis
       of the EIC computation math error to determine reasons for its occurrence, identify and
       test potential solutions, and implement successful solutions.
       Office of Audit Comment: While we believe the corrective actions agreed to by the
       IRS may help to reduce the number of repetitive math errors related to the EIC, we
       believe that better use of shading on the EIC Table (particularly using color) and the use
       of CAUTION symbols would have a greater effect.

Taxpayers Made Repetitive Errors When Computing and Reporting
Their Self-Employment Tax
Self-Employment Tax (Schedule SE, Form 1040) is used by taxpayers to calculate the tax due
on net earnings from self-employment. For certain errors, the IRS sends a notice to taxpayers
that reads,
       “We changed the amount of self-employment tax on page 2 of your tax return
       because there was an error on Schedule SE, Self-Employment Tax. The error was
       in the:
              − computation of the self-employment tax on Schedule SE and/or
              − transfer of that amount to page 2 of your tax return.”


                                                                                          Page 17
                                  Opportunities Exist to Help Seniors and
                               Many Other Taxpayers That Repeatedly Make
                              Mistakes on Their Individual Income Tax Returns



For Tax Year 2004, the IRS sent 81,839 of these notices to taxpayers informing them of a
miscalculation made in their self-employment tax. More than 9,500 (12 percent) of these
taxpayers were receiving this same notice for the second time; we estimate at least
3,351 taxpayers were receiving it for a third time.
Our review of a sample of 40 taxpayers that had received this same error notice for at least
2 years revealed the following:
    •   Fifty-five percent (22 of 40) had not correctly transferred the amount of self-employment
        tax they had computed to the Forms 1040 for 2 years or 3 years in a row. Eighteen of the
        22 taxpayers had erroneously transferred exactly 50 percent of their self-employment tax
        (the same amount as that used as an adjustment to gross income) to Form 1040, while
        4 had not transferred any amount. Notably, of the 22 taxpayers that had made transfer
        errors, 17 had accurately computed the self-employment tax on all of their returns. This
        is an indicator that these taxpayers have the ability to complete this portion of their
        individual returns but either lack the understanding or are overlooking instructions
        necessary to transfer the correct amounts.
    •   Thirty-eight percent (15 of 40) had computed self-employment tax incorrectly for 2 years
        or 3 years in a row. A common problem for 7 of the 15 taxpayers was that they had not
        begun the computation by multiplying the self-employment earnings by 92.35 percent on
        all of their returns.
    •   Ninety percent of the taxpayers had prepared their own returns.
To determine whether the IRS could reduce the number of notices sent multiple times to the
same taxpayers, we evaluated the math error notice and the IRS forms and instructions that
pertain to the self-employment tax computation.

Improvements to the math error notice can be made
The math error notice sent to taxpayers is very generic and simply tells the taxpayer that the error
was in either the computation of the tax or the transfer of the tax amount from the Schedule SE
to the appropriate line on Form 1040. Additional information could be added to the notice
explaining common errors to avoid. Because 63 percent of the taxpayers included in our review
made 2 very specific errors repeatedly,7 taxpayers may benefit from a warning concerning these
errors.




7
  Eighteen (45 percent) of 40 taxpayers had erroneously transferred exactly 50 percent of their self-employment tax
to the Form 1040, and 7 (18 percent) of the 40 had failed to multiply their self-employment earnings by
92.35 percent at the beginning of the tax computation.
                                                                                                           Page 18
                             Opportunities Exist to Help Seniors and
                          Many Other Taxpayers That Repeatedly Make
                         Mistakes on Their Individual Income Tax Returns



Improvements to forms and instructions can be made
The IRS forms and instructions relating to the computation of the self-employment tax appear to
be clearly written. However, due to commonality among the errors made, additional warnings or
cautions should be used to help taxpayers avoid repeating those particular errors each year.
Forty-five percent of the taxpayers reviewed had incorrectly transferred to their Forms 1040, for
multiple years, exactly 50 percent (rather than 100 percent as required) of the correct amount of
self-employment tax computed. This indicates that, even though instructions appear clear,
taxpayers are confused regarding the amount of tax that should be transferred to the Form 1040.
In addition, 7 of the 15 taxpayers that had repeatedly made computational errors had failed to
multiply self-employment income by 92.35 percent to arrive at “net earnings from
self-employment” prior to multiplying the amount by the actual tax rate. Again, a simple
warning may help taxpayers avoid repeating this error.

Recommendations
Recommendation 6: The Director, Customer Account Services, W&I Division, should
include additional information in the notice to alert taxpayers of common mistakes made when
computing self-employment tax.
       Management’s Response: IRS management disagreed with this recommendation.
       The Commissioner, W&I Division, believes adding information in the notice to alert
       taxpayers of common errors will confuse taxpayers’ understanding of the intent of the
       notice and because there are a relatively small number of taxpayers to whom notices are
       issued for such errors. The IRS cited the small percentage of taxpayers that make
       self-employment computation errors in comparison to the total that file.
       Office of Audit Comment: In our opinion, the purpose of a notice is not just to
       inform taxpayers of their errors, but to educate them on the issues to ensure the errors do
       not occur in the future. We believe a notice could be crafted that would not only explain
       the taxpayers’ error but could also better inform the taxpayers. Our recommendation
       would help the 80,000 plus taxpayers (81,839 during tax year 2004) that receive such a
       notice each year. We believe this number is significant enough to warrant action by the
       IRS.
Recommendation 7: The Director, Tax Forms and Publications, W&I Division, should use
CAUTION symbols to identify the two areas in the instructions for computing self-employment
tax where mistakes are common.
       Management’s Response: IRS management disagreed with this recommendation.
       The Commissioner, W&I Division, stated there is no data to substantiate the value of
       using CAUTION symbols relating to the self-employment tax computations and believes

                                                                                           Page 19
                      Opportunities Exist to Help Seniors and
                   Many Other Taxpayers That Repeatedly Make
                  Mistakes on Their Individual Income Tax Returns



these symbols will not change taxpayer behavior. The IRS is judicious in using
CAUTION symbols in instructions so that only major issues are emphasized. The IRS
believes other communication channels would be more effective.
Office of Audit Comment: The IRS’ response that it will not add CAUTION symbols
because there is no data to substantiate the value of using these symbols relating to
self-employment tax computations seems to be inconsistent with both its mission (to help
taxpayers understand and meet their tax responsibilities) and its actions (the IRS already
uses CAUTION symbols throughout the Form 1040 Instructions). To cite a lack of data
for not using these symbols here does not make sense, unless the IRS believes
self-employed taxpayers would react differently to CAUTION symbols than other
taxpayers. Certainly if there is a chance that making a simple change to forms and
instructions might prove helpful to taxpayers, the IRS has an obligation to test the change
and gather the data. There is a sizeable body of outside data available on the use of
“warnings” and they indicate that warnings, used correctly, have a strong role in affecting
people’s behavior.
We agree with the IRS that CAUTION symbols should be used judiciously and for major
tax issues. However, in our opinion, the use of these symbols to address the frequently
made errors identified in this report meets the criteria better than some of the uses
currently employed by the IRS. For example, the following CAUTIONs are included in
the Form 1040 Instructions:
“Private delivery services cannot deliver items to P.O. boxes. You must use the U.S.
Postal Service” and
“You may have to pay an additional tax if you received a taxable distribution from a
Coverdell ESA (education savings account) or a QTP (Qualified Tuition Program).
While both of these statements contain good information, it is certainly questionable
whether they qualify as “major issues.” We believe CAUTION symbols would be better
used for errors often encountered by taxpayers completing their taxes, such as the ones
identified throughout this report.
The CAUTION symbol is already used approximately 35 times in the 87 pages of
General Instruction. Furthermore, the TIP symbol, which is similar to the CAUTION
symbol in size, shape, and color, is used more than 35 times. The constant use of these
similar symbols can diminish their effectiveness. This is, in part, why we suggested the
use of additional symbols as noted on page 14 of this report. Symbols that more closely
represent their intended message are considered more effective.




                                                                                   Page 20
                                  Opportunities Exist to Help Seniors and
                               Many Other Taxpayers That Repeatedly Make
                              Mistakes on Their Individual Income Tax Returns



                                                                                                  Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to identify taxpayers that have repeatedly received the
same math error notices and to determine whether the IRS could better address the issues causing
these notices. To accomplish the objectives, we:
I.      Identified taxpayers that had received the same math error notices repeatedly.
        A. Obtained computer extracts from the IRS Return Transaction File1 that identified
           taxpayers that had filed Employer’s QUARTERLY Federal Tax Returns (Form 941),
           U.S. Corporation Income Tax Returns (Form 1120), and U.S. Individual Income Tax
           Returns (Form 1040) and had repeatedly received the same taxpayer notices (based
           on notice numbers). For each year reviewed, the Return Transaction File contained
           more than 24 million Forms 941, more than 2.2 million Forms 1120, and more than
           126 million Forms 1040 (Tax Years 2002 – 2004).
             1. Identified Form 941 filers that had received the same notice in at least 6 of the
                12 quarters for which they filed Forms 941 (Tax Years 2002 - 2004).
             2. Identified Form 1120 and Form 1040 filers that had received the same notice
                annually over both a 2-year period (Tax Years 2003 and 2004) and a 3-year
                period (Tax Years 2002 - 2004).
        B. Randomly sampled (nonstatistical) and reviewed 48 specific returns identified in the
           computer extract, and scanned many more returns to assess the accuracy of the data,
           and determined the data to be reliable. Tests conducted to assess the data’s reliability
           included matching extracted data to original IRS databases and also verifying that the
           returns extracted met required criteria.
        C. Identified those taxpayers that had repeatedly received the same notice and
           determined the most frequently repeated taxpayer notices (by notice number) sent to
           taxpayers for each type of return (Forms 941, 1120, and 1040).
II.     Evaluated the notices that are frequently sent to taxpayers and determined whether the
        IRS could better address the problems (i.e., reduce the volumes of notices that have to be
        issued).
        A. Identified the volume of each notice that was issued for multiple years.


1
An IRS database containing the line items transcribed during return processing and includes other fields such as
math calculations.
                                                                                                          Page 21
                      Opportunities Exist to Help Seniors and
                   Many Other Taxpayers That Repeatedly Make
                  Mistakes on Their Individual Income Tax Returns



B. For each particular notice, selected a random nonstatistical sample of 40 taxpayers
   that had repetitively received the notice, ordered the returns that had prompted
   issuance of the notice, and determined the reason(s) for issuance of the notice. We
   selected our random nonstatistical samples by using a random number generator to
   identify 40 cases from the population of taxpayers receiving each repetitive math
   error notice. We used random nonstatistical samples because we were not projecting
   outcomes from our samples. The math error notices sampled included Math Error
   Notice 131 (population 34,101), Notice 192 (population 16,318), Notice 285
   (population 44,229), Notice 268 (population 9,574), and Notice 653 (population
   20,536). Please see Appendix IV for notice explanations.
C. Determined what efforts (e.g., education, notice clarity), if any, the IRS could take to
   reduce the number of notices it has to issue.
D. We performed a risk assessment to identify any internal control weaknesses that
   needed to be included in our audit tests. We determined the IRS did not have controls
   to identify repetitive notices and, accordingly, we identified recommendations in our
   report to address the control deficiencies.




                                                                                    Page 22
                            Opportunities Exist to Help Seniors and
                         Many Other Taxpayers That Repeatedly Make
                        Mistakes on Their Individual Income Tax Returns



                                                                               Appendix II


                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
Larry Madsen, Audit Manager
L. Jeff Anderson, Senior Auditor
Kyle Bambrough, Senior Auditor
Annette Bates, Senior Auditor
Bill Russell, Senior Auditor
Layne Powell, Information Technology Specialist




                                                                                        Page 23
                          Opportunities Exist to Help Seniors and
                       Many Other Taxpayers That Repeatedly Make
                      Mistakes on Their Individual Income Tax Returns



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships and Education SE:W:CAR
Director, Media and Publications SE:W:CAR:MP
Director, Submission Processing, Wage and Investment Division, SE:W:CAS:SP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Field Director, Submission Processing (Cincinnati) SE:W:CAS:SP:C
Field Director, Submission Processing (Fresno) SE:W:CAS:SP:F
Field Director, Submission Processing (Kansas City) SE:W:CAS:SP:KC
Field Director, Submission Processing (Ogden) SE:W:CAS:SP:O
Director, Office of Legislative Affairs CL:LA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
    Commissioner, Small Business/Self Employed Division SE:S:COM
    Commissioner, Wage and Investment Division SE:W:S




                                                                                   Page 24
                             Opportunities Exist to Help Seniors and
                          Many Other Taxpayers That Repeatedly Make
                         Mistakes on Their Individual Income Tax Returns



                                                                                 Appendix IV

                      Math Error Notices Reviewed

This is a list of the math error notices we reviewed during the audit. We have presented the
narrative information for each type of notice as it is shown in IRS Processing Codes and
Information (Document 6209, Rev. 1-2006).
101     We changed your filing status. We refigured your tax using the Single filing status based
on the information on your tax return.
108     We changed your filing status. We refigured your tax using the Single filing status.
Your return was filed using the Head of Household filing status. The name of the dependent that
qualifies you for the Head of Household filing status was not present on your tax return.
121    We changed the amount of business income or loss on page 1of[sic] your tax return
because there was an error on Schedule C/C-EZ, Profit or Loss From Business. The error was in
the:
       −       computation of the net profit or loss on Schedule C/C-EZ and/or
       −       transfer of that amount to page 1 of your tax return.
122    We changed the amount of capital gain or loss on page 1 of your tax return because there
was an error on Schedule D, Capital Gains and Losses. The error was in the:
       −       computation of the capital gain or loss and/or
       −       transfer of that amount to page 1 of your tax return.
Capital losses are limited to $3,000 ($1,500 for Married Filing Separately).
131    We changed the amount of social security benefits on page 1 of your tax return because
there was an error in the computation of the taxable amount.
Note: Publication 915, Social Security and Equivalent Railroad Retirement Benefits, provides
additional information related to computing your taxable social security Benefits. You may call
1-800-TAX-FORM (1-800-829-3676) to order Publication 915, or download it from our web site
at www.irs.gov .[sic]




                                                                                         Page 25
                                   Opportunities Exist to Help Seniors and
                                Many Other Taxpayers That Repeatedly Make
                               Mistakes on Their Individual Income Tax Returns



138    10401 - We changed the total income on page 1 of your tax return to include the taxable
amount of your employer-provided dependent care benefits. Benefits you received that were
more than your childcare expenses must be included as wages on your tax return.
141     We changed the amount of total income on page 1 of your tax return because there was
an error in the computation.
158     1040 - We changed the adjusted gross income section on page 1 of your tax return. The
entry for one half[sic] of your self-employment tax was missing or incorrect.
177    We changed the amount claimed as medical and dental expenses on your Schedule A,
Itemized Deductions, because it was figured incorrectly.
180    We changed the amount claimed as total gifts to charity on your Schedule A, Itemized
Deductions, because it was figured incorrectly or the amount was not limited to one-half of your
adjusted gross income.
192     We changed the amount claimed as standard deduction on page 2 of your tax return. You
are entitled to a higher standard deduction if you and/or your spouse are age 65 or older and/or
blind.
194        We changed the amount claimed as standard deduction on page 2 of your tax return:
           −       No amount was entered for standard deduction, or
           −      The amount entered for standard deduction was incorrect with the filing status
           claimed on your return.
200     We changed your total exemption amount on page 2 of your tax return because there was
an error in the:
           −       number of exemptions provided on Lines 6a - 6d and/or
           −       computation of your total exemption amount.
208    We changed the amount of taxable income because there was an error in the subtraction
of your exemption or combined standard deduction/exemption amount.
209    We changed the amount of tax shown on your return. The amount entered was incorrect
based on your taxable income and filing status.
210     We changed the amount of tax on Line 43 of your Form 1040 because there was an error
in the computation of the Schedule D tax worksheet or Qualified Dividends and Capital Gain tax
worksheet.



1
    U.S. Individual Income Tax Return (Form 1040).
                                                                                            Page 26
                              Opportunities Exist to Help Seniors and
                           Many Other Taxpayers That Repeatedly Make
                          Mistakes on Their Individual Income Tax Returns



211    We changed the amount of tax on your return. The tax rates on Qualified Dividends and
Capital Gains are generally lower than the standard rates. It appears your tax was not computed
using one of these rates or was computed incorrectly.
226    We changed the amount of alternative minimum tax on page 2 of your tax return because
there was an error on Form 6251, Alternative Minimum Tax-Individuals. The error was in the
computation of alternative minimum taxable income.
240    We changed the amount claimed as credit for the elderly or the disabled on page 2 of
your tax return because there was an error on Schedule R/Schedule 3, Credit for the Elderly or
the Disabled. The error was in the:
       −       computation of the credit on Schedule R/Schedule 3, and/or
       −       transfer of that amount to page 2 of your tax return.
251    We didn’t allow part or all of your child tax credit and/or additional child tax credit on
page 2 of your tax return. One or more of your children exceeds the age limitation.
252    We changed the amount claimed as child tax credit on page 2 of your tax return because
no amount was entered or the amount entered was incorrect based on the number of boxes
checked on Line 6c and/or your adjusted gross income. If additional child tax credit is claimed
on Line 67, it may also be affected.
268    We changed the amount of self-employment tax on page 2 of your tax return because
there was an error on Schedule SE, Self-Employment Tax. The error was in the:
       −       computation of the self-employment tax on Schedule SE and/or
       −       transfer of that amount to page 2 of your tax return.
269 We changed the amount of self-employment tax on page 2 of your tax return. We
refigured your Schedule SE, Self-Employment Tax, to reflect your true net earnings before
multiplying the amount by .9235. You can not reduce your net earnings twice.
Section 1402(A)(12) applies to Line 4a of Schedule SE and is not an election.
285   We changed the amount claimed as Earned Income Credit (EIC) on your tax return. The
amount claimed as EIC was figured or entered incorrectly on your tax return.
293    We didn’t allow the amount claimed as Earned Income Credit on your tax return. You or
your spouse must be at least 25, but less than 65 years old, on December 31st of the tax year for
which the tax return is being filed.




                                                                                            Page 27
                             Opportunities Exist to Help Seniors and
                          Many Other Taxpayers That Repeatedly Make
                         Mistakes on Their Individual Income Tax Returns



295     We changed the amount claimed as additional child tax credit on page 2 of your tax
return because there was an error on Form 8812, Additional Child Tax Credit. The error was in
the:
       −      computation of the credit and/or
       −      transfer of that amount to page 2 of your tax return.
299   We changed the refund amount or the amount you owe on your tax return because the
amount entered on your tax return was computed incorrectly.
547    We changed the amount claimed as child tax and/or additional child tax credit on page 2
of your 2003 tax return because:
       −      No amount was entered, and/or
       −     The amount entered was incorrect based on your adjusted gross income and the
       number of boxes checked on Line 6c, and/or
       −     The credit amount was not correctly reduced by an amount received as an
       advance payment.
Note: The total amount of child tax credit for which you are eligible must be reduced by any
amount received as an advanced payment when figuring the amount to be entered on page 2 of
your 2003 tax return.
585     We didn’t allow the amount claimed as Earned Income Credit on page 2 of your tax
return because Schedule EIC, Earned Income Credit, was incomplete or not attached to your tax
return.
604     Each dependent listed on your tax return must have a valid social security Number (SSN)
or Individual Taxpayer Identification Number (ITIN). For one or more of your dependents the
SSN or ITIN was missing.
As a result, we didn’t allow one or more of your exemptions. This change may affect your
taxable income, tax, or any of the following credits:
              Credit for Child & Dependent Care Expenses
              Education Credits
              Child Tax Credit
              Additional Child Tax Credit.
If you, your spouse, or any of your dependents do not qualify for an SSN, you may obtain an
Individual Taxpayer Identification Number (ITIN) issued by the Internal Revenue Service by
filing Form W-7, Application for IRS Individual Taxpayer Identification Number. This number
will allow you to file your return and to claim an exemption but you will be ineligible to claim
                                                                                         Page 28
                              Opportunities Exist to Help Seniors and
                           Many Other Taxpayers That Repeatedly Make
                          Mistakes on Their Individual Income Tax Returns



the Earned Income Credit. You may call 1-800-829-3676 to get Form W-7 or download it from
our website at www.irs.gov.
605     Each dependent listed on your tax return must have a valid social security Number (SSN)
or Individual Taxpayer Identification Number (ITIN). For one or more of your dependents the
last name doesn’t match our records or the records provided by the Social Security
Administration.
As a result, we disallowed one or more of your exemptions. This change may affect your taxable
income, tax, or any of the following credits:
               Credit for Child & Dependent Care Expenses
               Education Credits
               Child Tax Credit
               Additional Child Tax Credit
If you, your spouse, or any of your dependents do not qualify for an SSN, you may obtain an
Individual Taxpayer Identification Number (ITIN) issued by the Internal Revenue Service by
filing Form W-7, Application for IRS Individual Taxpayer Identification Number. This number
will allow you to file your return and to claim an exemption but you will be ineligible to claim
the Earned Income Credit. You may call 1-800-829-3676 to get Form W-7 or download it from
our website at www.irs.gov.
653     We can’t allow the amount claimed as Earned Income Credit on page 2 of your tax
return. We have no record of receiving Form 8862, Information to[sic] Claim Earned Income
Credit After Disallowance, recertifying that you are eligible for the credit. You need to file a
Form 8862, which we have included with this notice for your convenience.
Note: The IRS may request additional verification in addition to the completed Form 8862.
702     We didn’t allow the amount claimed as Earned Income Credit (EIC) on your tax return.
The individual taxpayer identification number you gave us for yourself and/or spouse was issued
by the Internal Revenue Service and does not qualify you for the credit.
Note: To be eligible for EIC, you, your spouse, and qualifying child or children must use a
correct name and SSN issued by the Social Security Administration.




                                                                                           Page 29
                             Opportunities Exist to Help Seniors and
                          Many Other Taxpayers That Repeatedly Make
                         Mistakes on Their Individual Income Tax Returns



743    We didn’t allow part or all of the amount claimed as earned income credit (EIC) on
page 2 of your tax return. For one or more of the children listed on your Schedule EIC, Earned
Income Credit:
       −      The social security Number is missing or
       −     The last name doesn’t match our records or the records of the Social Security
       Administration.
If you, your spouse, or any of your dependents do not qualify for an SSN, you may obtain an
Individual Taxpayer Identification Number (ITIN) issued by the Internal Revenue Service by
filing Form W-7, Application for IRS Individual Taxpayer Identification Number. This number
will allow you to file your return and to claim an exemption but you will be ineligible to claim
the Earned Income Credit. You may call 1-800-829-3676 to get Form W-7 or download it from
our website at www.irs.gov .[sic]
748     We didn’t allow your personal exemption on Line 6A and Earned Income Credit (EIC)
on your tax return. Your social security Number (SSN) or last name doesn’t match our records
or the records provided by the Social Security Administration.
Note: To be eligible for EIC, you, your spouse and qualifying child or children must use a
correct name and SSN issued by the Social Security Administration.
If you, your spouse, or any of your dependents do not qualify for an SSN, you may obtain an
Individual Taxpayer Identification Number (ITIN) issued by the Internal Revenue Service by
filing Form W-7, Application for IRS Individual Taxpayer Identification Number. This number
will allow you to file your return and to claim an exemption but you will be ineligible to claim
the Earned Income Credit. You may call 1-800-829-3676 to get Form W-7 or download it from
our website at www.irs.gov .[sic]




                                                                                         Page 30
            Opportunities Exist to Help Seniors and
         Many Other Taxpayers That Repeatedly Make
        Mistakes on Their Individual Income Tax Returns



                                                  Appendix V

Management’s Response to the Draft Report




                                                          Page 31
    Opportunities Exist to Help Seniors and
 Many Other Taxpayers That Repeatedly Make
Mistakes on Their Individual Income Tax Returns




                                                  Page 32
    Opportunities Exist to Help Seniors and
 Many Other Taxpayers That Repeatedly Make
Mistakes on Their Individual Income Tax Returns




                                                  Page 33
    Opportunities Exist to Help Seniors and
 Many Other Taxpayers That Repeatedly Make
Mistakes on Their Individual Income Tax Returns




                                                  Page 34
    Opportunities Exist to Help Seniors and
 Many Other Taxpayers That Repeatedly Make
Mistakes on Their Individual Income Tax Returns




                                                  Page 35
    Opportunities Exist to Help Seniors and
 Many Other Taxpayers That Repeatedly Make
Mistakes on Their Individual Income Tax Returns




                                                  Page 36
    Opportunities Exist to Help Seniors and
 Many Other Taxpayers That Repeatedly Make
Mistakes on Their Individual Income Tax Returns




                                                  Page 37
